OIG Investigative Reports, Former Lubock Independent School District Program Coordinator Sentenced for Stealing Federal "No Child Left Behind" Funds
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
U.S. Department of Justice
James T. Jacks
Acting United States Attorney
Northern District of Texas
FOR IMMEDIATE RELEASE
FRIDAY, APRIL 24, 2009
www.usdoj.gov/usao/txn
MEDIA INQUIRIES: KATHY COLVIN
PHONE: (214) 659-8600
FAX: (214) 767-2898
Former Lubock Independent School District Program Coordinator Sentenced for Stealing Federal "No Child Left Behind" Funds
LUBBOCK, Texas — Janie Sue Esparza, the former Bilingual/English as a Second Language (ESL) Coordinator for the Lubbock Independent School District (LISD), was sentenced today by U.S. District Judge Sam R. Cummings to serve five years probation, perform 198 hours of community service, and pay $13,048.56 restitution. Esparza, 60, pled guilty in January 2009 to one count of theft from an organization receiving federal funds. As part of her agreement with the government, Esparza agreed to surrender her Texas Educator Certificate and understands that she will not have an opportunity to re-apply for another Certificate.
According to documents filed in the case, from September 2004 through January 2007, while Esparza served as the LISD Bilingual/ESL Coordinator, she stole funds designated for that program. The U.S. Department of Education's Bilingual/ESL program, designed for language instruction of limited English proficient students, is part of the No Child Left Behind Act. As part of her duties, Esparza managed the budget for the Bilingual/ESL program.
Esparza admitted that she stole the funds by creating false receipts and invoices to justify program advances she received to purchase curriculum materials, such as books and kits, but actually did not purchase. At other times, Esparza created false receipts which were submitted to the LISD for reimbursement of purchased items, which she never actually purchased.
The case was investigated by the U.S. Department of Education - Office of Inspector General, and prosecuted by Assistant U.S. Attorney Paulina M. Jacobo of the Lubbock, Texas, U.S. Attorney's Office.
###
Top
Printable view
Share this page
Last Modified: 04/27/2009
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov